No. 19-1212

 

 

IN THE

Supreme Court of the United States

DAVID PEKOSKE, ACTING SECRETARY OF HOMELAND
SECURITY, ET AL.,
Petitioners,

Vv.

INNOVATION LAW LAB, ET AL.,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF OF NONGOVERNMENTAL ORGANIZA-
TIONS AND LAW SCHOOL CLINICS AS AMICI
CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,933 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 22, 2021.

Colin Casey ke.

Wilson-Epes Printing Co., Inc.
